"QQFOEJY

1a
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of Appeals 3rd Cir.
App. I, IOP 5.1, 5.3, and 5.7.
United States Court of Appeals, Third Circuit.
Ronald WATSON
v.
LLOYD INDUSTRIES, INC., Appellant
Nos. 19-2066 & 19-252519-2525
Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
May 21, 2020(Opinion Filed: August 19, 2020)
On Appeal from the United States District Court for
the Eastern District of Pennsylvania (D.C. No. 2-17-cv01049), District Judge: Honorable Michael M. Baylson
Attorneys and Law Firms
Samuel Dion, Dion & Goldberger, Philadelphia, PA, for
Plaintiff-Appellee
Keith J. Cohen, Esq., Law Offices of Keith J. Cohen,
Blue Bell, PA, Theodore C. Forrence, Jr., Esq.,
Philadelphia, PA, for Defendant-Appellant
Before: McKEE, BIBAS,
Judges
OPINION*
McKEE, Circuit Judge.

and NYGAARD,

Circuit

2a
*710 Lloyd Industries challenges an allegedly excessive
award of damages and attorneys’ fees. Because we find
there were reasonable grounds for each and that the
punitive damage award satisfies the constitutional bar,
we will affirm.1
I.
We remain “mindful that our scope of review of a
damages award is exceedingly narrow.”2 Likewise, we
review a district court's award of attorneys’ fees for
abuse of discretion.3 However, the constitutionality of a
punitive damage award is reviewed de novo.4
II.
Appellant challenges the emotional damages award
($50,000) on the grounds that Watson failed to describe
sufficient emotional harm to warrant the jury's award.
Evidence sufficient to sustain a jury award for such
damages does not necessarily have to be “compelling,”
but it must exist.5 Here there is testimony from Watson
and his wife that his termination left emotional scars. In
particular, there is evidence that the unprofessional
behavior by Prendergast when informing Watson of his
termination caused a lasting impact.6 This testimony is
sufficient evidence to support the emotional damages
award. This is particularly true given our narrow scope
of review. We must avoid seconding-guessing the factfinder. “Evidence of pain and suffering is particularly
ill-suited to review upon only a written record.”7
Next, Appellant argues the punitive damage award, at
five times the compensatory award, was excessive and
inadequately supported by the district court's analysis.

3a
We must determine “whether the punitive damage
award is so ‘grossly disproportional’ to [Appellant's]
conduct as to amount to a constitutional
violation.”8 Reviewing de novo, we find no violation.
The ratio between the compensatory ($99,600) and
punitive ($500,000) damages awarded here is 1:5, a
single digit ratio, which falls within the Supreme
Court's guidance.9 The argument to the contrary
ignores evidence of overtly racial bias that the jury
found credible.
Finally, Appellant protests the attorney fee award on
the grounds that Watson's counsel never submitted a
fee schedule and that the district court awarded a
single *711 hourly rate for all of that counsel's services,
rather than differentiating between the skilled legal
work and more mundane tasks that should not
command a premium rate. The district court did rely on
the Community Legal Services fee schedule,10 and we
cannot say that declining to delineate separate fee rates
based on that framework was an abuse of discretion.
Thus, we will affirm the district court.
Footnotes
*This disposition is not an opinion of the full Court and
pursuant to I.O.P. 5.7 does not constitute binding
precedent.
1The district court held subject matter jurisdiction
under 28 U.S.C. § 1331. This Court has appellate
jurisdiction over the “final decision” of the district court
under 28 U.S.C. § 1291.

4a
2Cooper Distrib. Co., Inc. v. Amana Refrigeration, Inc.,
63 F.3d 262, 277 (3d Cir. 1995) (quotation omitted).
3Krueger Assoc., Inc. v. Am. Dist. Tel. Co. of Pa., 247
F.3d 61, 69 (3d Cir. 2001).
4Cooper Indus., Inc. v. Leatherman Tool Grp., Inc., 532
U.S. 424, 436, 121 S.Ct. 1678, 149 L.Ed.2d 674 (2001).
5Bolden v. Se. Pa. Transp. Auth., 21 F.3d 29, 34 (3d Cir.
1994).
6App. 395-96. Watson testified that when asked why he
had been picked to be laid off, Prendergast told him,
“because I can.” App. 395.
7Walters v. Mintec/Intl., 758 F.2d 73, 81 (3d Cir.
1985) (quotation omitted).
8Brand Mktg. Grp. LLC v. Intertek Testing Serv., N.A.,
Inc., 801 F.3d 347 (3rd Cir. 2015).
9State Farm Mut. Auto. Ins. Co. v. Campbell, 538 U.S.
408, 410, 123 S.Ct. 1513, 155 L.Ed.2d 585 (2003).
10App. 69-80.

5a
United States District Court, E.D. Pennsylvania.
Ronald WATSON
v.
LLOYD INDUSTRIES, INC.
CIVIL ACTION NO. 17-1049
Filed 04/11/2019
Attorneys and Law Firms
Samuel A. Dion, Dion & Goldberger, Philadelphia, PA,
for Ronald Watson.
Keith J. Cohen, Law Offices of Keith J. Cohen, Blue
Bell, PA, for Lloyd Industries, Inc.
MEMORANDUM RE: POST-TRIAL MOTIONS
Baylson, District Judge
*1 This memorandum follows upon this Court's March
19, 2019 memorandum regarding Defendant's post-trial
motion for judgment as a matter of law or a new trial.
(ECF 40.) Because the briefing did not sufficiently
address the issues relevant to the damages award, we
requested the parties supplement their briefing. (ECF
41; ECF 42 & 42, Suppl. Briefs) This memorandum
incorporates the factual recitation from that
memorandum. (ECF 40, pp. 1-8.)
The jury awarded Watson $ 50,000 in compensatory
damages for “any injury he actually sustained,” $ 49,960
in back pay from October 29, 2015 through April 9,
2018, and $ 750,000 in punitive damages. Defendant

6a
requests that we grant a new trial on back pay, that we
strike, remit, or grant a new trial on the compensatory
damages, and that we strike or remit the punitive
damage award. (Def.'s Suppl. Br. at 5-6.)
I. Compensatory damages
The compensatory damage award consists of both
emotional harm and back pay. Defendant asserts that
the only evidence of Plaintiff's emotional distress
“consisted of his own self-serving conclusory
testimony.” (ECF 28, Post-Trial Mot. Memo. at 17-18.)
“ ‘In general, the determination of compensatory
damages is within the province of the jury and is
entitled to great deference.’ ... However, ‘[t]he district
judge is in the best position to evaluate the evidence
presented and determine whether or not the jury has
come to a rationally based conclusion.’ ” Dee v. Borough
of Dunmore, 474 Fed. Appx. 85 (3d Cir.
2012) (quoting Spence v. Bd. Of Educ., 806 F.2d 1198,
1204, 1201 (3d Cir. 1986) ). In Spence, the plaintiff was
transferred out of her position as an art teacher to a
position at a different school in retaliation for the
exercise of her First Amendment rights. The Court of
Appeals affirmed the district court's remittitur of all
emotional distress damages in the case because
“neither the circumstances nor the testimony
established that there was a ‘reasonably probability,
rather than a mere possibility, that damages due to
emotional distress were in fact incurred.’ ” 806 F.2d at
1201. The Court of Appeals declined to decide “whether
a verdict for emotional distress may ever be supported
solely by a plaintiff's own testimony.” Id.

7a
A remittitur is “a device employed when the trial judge
finds that a decision of the jury is clearly unsupported
and/or excessive.” Cortez v. Trans Union, LLC, 617
F.3d 688, 715 (3d Cir. 2010) (quoting Spence, 806 F.2d at
1201.)
We reject Defendant's contentions here that the
compensatory damage award is against the weight of
evidence. Plaintiff's claim for emotional suffering
damages was supported by his own testimony, which
the jury found credible. His claim was also supported
by the credible testimony of his long-time partner,
Zenetta Ruffin, who testified that after Watson was
laid off, “his mood was different, he was sad, like I said,
he was depressed. It was difficult for us financially
because like I said we just bought the home, and we
had to adjust a lot of things to compensate for the loss
of income.” (Tr. Day 1 178:24-179:3.) The credible
testimony of Watson and Ruffin created a sufficient
basis upon which the jury awarded its compensatory
damages. Similarly, Watson's testimony that he lost
approximately $ 457.24 per week for about two and a
half years provided a sufficient basis for the jury's
award of back pay.
II. Punitive damages
*2 The punitive damage award of $ 750,000 is a multiple
of 7.5 over the compensatory damages award. We must
determine whether this punitive damage award is “so
‘grossly disproportional’ to the defendant's conduct as
to amount to a constitutional violation.” Willow Inn,
Inc. v. Public Service Mut. Ins. Co., 339 F.3d 224 (3d
Cir. 2005) (quoting Cooper Indus., Inc. v. Leatherman

8a
Tool Group, Inc., 532 U.S. 424, 431 (2001) ). “The Due
Process Clause of the Fourteenth Amendment
prohibits the imposition of grossly excessive or
arbitrary punishments on a tortfeasor.” State Farm
Mut. Auto. Ins. Co. v. Campbell, 538 U.S. 408, 417
(2003).
Defendant urges us to find that no punitive damages
are justified, contending that there was no evidence of
conscious wrongdoing by Defendant and no evidence
from which the jury could infer that the Defendant
knew it was violating federal law. (Post-Trial Mot.
Memo. at 21.) Alternatively, Defendant argues that we
should reduce the award to a nominal amount because
the award violates Lloyd Industries' due process rights.
(Id. at 22.)
Both parties agree that we must examine the three
“guideposts” of BMW of North America, Inc. v. Gore,
517 U.S. 559, 575-86 (1996) to determine whether the
punitive damage award comports with due process: (1)
degree of reprehensibility of the defendant's conduct;
(2) the ratio of actual harm to punitive damages; and (3)
the comparison of punitive damages awarded to the
civil or criminal penalties that could be imposed.
With regard to the first Gore guidepost, we find that
Plaintiff has demonstrated that Defendant's behavior
was reprehensible. Racial discrimination is illegal and
repugnant. We reject Defendant's argument that no
punitive damages are proper. On the other hand,
Plaintiff's evidence, although compelling, was sparse
and did not establish any prior conduct, reckless

9a
indifference, slurs, physical harm, or malicious behavior
toward the Plaintiff because he is black.1
With regard to the second Gore guidepost, we observe
that the punitive damage award here was $ 750,000,
which is about 7.5 times the $ 99,960.00 compensatory
damages award. Although the Supreme Court has not
provided firm guidance on an appropriate ratio, in State
Farm, Justice Kennedy wrote for the Court that “in
practice, few awards exceeding a single-digit ratio
between punitive and compensatory damages, to a
significant degree, will satisfy due process.” 538 U.S. at
425. He also noted that in an earlier case affirming a
punitive damages award, the Court “concluded that an
award of more than four times the amount of
compensatory damages might be close to the line of
constitutional impropriety.” Id. (discussing Pac. Mut.
Life Ins. Co. v. Haslip, 499 U.S. 1, 23 (1991) ).
Third Circuit precedent does not provide any rule as to
specific ratios that may be appropriate. Compare In re
Bayside Prison Litig., 339 F.App'x 987, 993 (3d Cir.
2009) (holding that a punitive damage award that was
4.5 times the compensatory damage award in a prisoner
civil rights claim was a “close case” and remanding to
the district court to re-evaluate) with Brand Mktg. Grp.
LLC v. Intertek Testing Servs., N.A., Inc., 801 F.3d
347, 366 (3d Cir. 2015) (holding that a punitive damages
award of five times the compensatory damages was not
“suspect by itself.”).
*3 With regard to the third and final Gore guidepost,
although there are no penalties that could be imposed
for Defendant's behavior, we must recognize the cap on

10a
punitive and compensatory damages under Title VII.
For an employer the size of Lloyd Industries, the sum
of these damages would be limited to $ 50,000. 42
U.S.C.A. § 1981a. While Congress chose not to impose a
statutory cap on damages under § 1981, the fact that it
has imposed this limit for the same behavior is a
significant consideration. See, e.g., Zielinski v. SPS
Techs. LLC, 2011 WL 5902214, at *12 (E.D. Pa. Nov.
22, 2011) (Baylson, J.) (“[A]n award as large as the one
here is troubling in light of the similarity between
[Plaintiff's] Title VII and § 1981 claims.”)
In light of the analysis above, the similarity between
the Title VII and § 1981 claims, and the fact that the
punitive damage award here is fifteen times the
statutory cap on all damages under Title VII, this court
concludes that the punitive damage award of the jury is
excessive and does not comport with due process. A
punitive damages award that is five times the
compensatory damages is reasonable in light of the
facts and circumstances of this case and comports with
due process. As a matter of law, the punitive damage
award will be reduced to $ 499,800. A new trial will not
be granted. See Cortez v. Trans Union, LLC, 617 F.3d
688, 716 (3d Cir. 2010) (noting that when a court
reduces a damages award to avoid a denial of due
process under Gore, “there is no interference with the
Seventh Amendment right to have a jury make findings
of fact.”)
III. Conclusion
For the reasons discussed above, we grant Defendant's
post-trial motion for a remittitur of the punitive

11a
damages. We affirm the jury's compensatory damage
award.
An appropriate order follows.
Footnotes
1We are guided by the factors used to evaluate the
reprehensibility guidepost CGB Occupational Therapy,
Inc. v. RHA Health Servs., Inc.:
(1) the harm caused was physical as opposed to
economic; (2) the tortious conduct evinced an
indifference to or reckless disregard of the
health or safety of others; (3) the target of the
conduct had financial vulnerability; (4) the
conduct involved repeated actions or was an
isolated incident; and (5) the harm was the result
of intentional malice, trickery, or deceit, or mere
accident.
499 F.3d 184, 190 (3d
Farm, 538 U.S. at 419).

Cir.

2007) (quoting State

12a
United States District Court, E.D. Pennsylvania.
Ronald WATSON
v.
LLOYD INDUSTRIES, INC.
CIVIL ACTION NO. 17-1049
Filed 03/19/2019
Attorneys and Law Firms
Samuel A. Dion, Dion & Goldberger, Philadelphia, PA,
for Ronald Watson.
Keith J. Cohen, Law Offices of Keith J. Cohen, Blue
Bell, PA, for Lloyd Industries, Inc.
MEMORANDUM RE: POST-TRIAL MOTIONS
Baylson, District Judge
*1 In this civil rights case, Plaintiff Ronald Watson
asserts that his former employer, Lloyd Industries, Inc.
discriminated against him on the basis of his race when
it laid him off in October 2015, in violation of Title VII
and 42 U.S.C. § 1981. After a jury verdict in favor of
Plaintiffs, Defendants moved for judgment as a matter
of law, a new trial, or remittitur, alleging insufficient
proof to sustain the verdict. This memorandum
addresses Defendant's motion for judgment as a matter
of law and for a new trial.
I. Background

13a
This two-day trial was held in November 2018 after a
remarkably quiet pre-trial period where no motions
were filed, at all. All evidence was presented on the
first day of trial, and the second day of trial consisted of
closing arguments, jury instructions, jury deliberation
and verdict. The jury deliberated for approximately
two hours.
Plaintiff called five witnesses: William Lloyd, Shaun
Mathis, Ronald Watson, Fred Braker, and Zenetta
Ruffin. Defendant called Thomas Prendergast and
recalled William Lloyd. Defendant moved for a directed
verdict after an offer of proof had been presented by
Plaintiff regarding the subject of the testimony of
Zenetta Ruffin. Defendant contended “that plaintiff has
not met the burden of proof to establish any racial
motivation for the dismissal of Mr. Watson.” (Tr. Day 1
171:5-8.) We summarize the nature of each witness's
testimony below, reviewing the testimony in the light
most favorable to the Plaintiff.
a. William Lloyd
William Lloyd, the founder and CEO of Lloyd
Industries, was first called as on cross by Plaintiff.
Defendants also called Lloyd later in the trial as a
defense witness. Lloyd provided background on the
company which manufactures fire protective products
for HVAC systems. (Tr. Day 1 21:18-22:7.) Lloyd
discussed the union contract that Lloyd Industries has
with its employees, including the provision ensuring
plant-wide seniority. (Tr. Day 1 22:8-25:23.) He also
addressed the difference between an assembler and a

14a
punch press operator, noting that Watson was
categorized as both. (Tr. Day 1 27:9-29:2.)
Lloyd
testified
that
the
Lloyd
Industries'
Montgomeryville plant where Watson worked had few
black employees because they did not apply for jobs
there, but that in Lloyd Industries' Florida plant, about
eighty percent of the employees were black. (Tr. Day 1
56:16-57:16.) Lloyd later admitted that only eight of the
twenty-five employees at the Florida plant are black.
(Tr. Day 1 208:19-209:2.)
Lloyd testified that he and Thomas Prendergast, the
plant manager, made decisions to lay off two
employees, including Watson, when business got slow.
(Tr. Day 1 34:22-35:12.) He stated, however, that
Prendergast was the one who decided to lay off
Watson, as it was in the “discretion of the plant
manager to lay off employees whose departments are
lacking work.” (Tr. Day 1 35:13-15; 37:11-23.) Lloyd
reviewed employment documents confirming that the
only three black employees in the factory—Shawn
Broadnax, Shawn Mathis, and Watson—left the
company between October 26, 2015 and October 30,
2015. (Tr. Day 1 39:1-25.) While Broadnax and Watson
were laid off by Prendergast because of an alleged lack
of work, Mathis “resign[ed] on his own terms.” (Tr. Day
1 39:16-19.) Lloyd stated that the company preferred to
lay people off rather than fire them “so they go collect
unemployment,” and contended that the true reason for
Watson's lay off was that he was a subpar employee
and had an alcohol problem (Tr. Day 1 41:14-42:7.)

15a
*2 With regard to Watson's record at work, Lloyd
testified that he performed assembly work “poorly.”
(Tr. Day 1 34:5-8.) He stated that Watson would come
back from lunch with alcohol on his breath, but
admitted that he would permit Watson to operate
heavy machinery even when he had alcohol on his
breath. (Tr. Day 1 42:8-44:22.) Lloyd never disciplined
Watson for any of these alleged performance issues, but
also testified that the company has a policy of not
giving “writing up” employees. (Tr. Day 1 59:8-60:13.)
Lloyd confirmed a statement from his deposition that
he laid off Watson to make room for another white
employee who needed to move into Watson's
department because of medical reasons. (Tr. Day 1 51:322.) Like Watson, Broadnax, the other laid off black
employee, had performance issues, according to Lloyd.
(Tr. Day 1 50:18-24.)
Lloyd testified that a white employee Steve Malloy was
hired as an assembler in June 2015, after Watson. (Tr.
Day 1 32:5-7.) Despite Malloy having less seniority than
Watson, Lloyd stated that Malloy was an assembler and
that Watson could not perform Malloy's assembler job
“[b]ecause he was a punch-press operator.” (Tr. Day 1
46:16-25; 48:20-22.) He testified that the assembly work
performed by Malloy was different than the assembly
work performed by Watson, although some assembly
duties are “easier to learn” than others. (Tr. Day 1 48:122.)
b. Shaun Mathis
Shaun Mathis, a former Lloyd Industries employee,
testified about the work that he did as an assembler.

16a
(Tr. Day 1 68:1-70:5; 75:10-77:1.) He testified that
Prendergast was not friendly with black employees:
“being as though that there were only three AfricanAmerican workers in the shop, from what I noticed,
there wasn't much being done as far as conversation as
far as those three gentlemen, including myself, and
everyone else in the shop.” (Tr. Day 1 71:4-8.) Mathis
did say, however, that no one ever said anything to him
“of a racial nature ... that would make you
uncomfortable” when he was working at Lloyd
Industries. (Tr. Day 1 86:14-17.)
Mathis testified that he was written up once for being
late and was unaware of any company policy
prohibiting write-ups. (Tr. Day 1 72:25-73:14.) Mathis
eventually resigned after he requested a more flexible
schedule to allow him to look for a second job closer to
home, and was in turn given a reduced schedule. (Tr.
Day 1 77:8-78:3.) He testified that other employees had
been given flexibility with their schedules in the past,
though he admitted that there were part-time and fulltime employees with varying schedules. (Tr. Day 1
83:18-85:6.)
Mathis testified that he worked in the same department
as Steve Malloy, who started about a month or two
after him. (Tr. Day 1 71:10-16.) He stated that Malloy's
work was subpar: “a lot of [Malloy's] work had to be
redone.... He would come in maybe two, three times a
week late.” (Tr. Day 1 72:3-14.) Mathis did not observe
a relationship between Prendergast and Malloy. (Tr.
Day 1 75:5-9.)
c. Ronald Watson

17a
Ronald Watson testified that he was hired by Lloyd to
be a punch press operator in the Lloyd Industries
Montgomeryville, Pennsylvania plant in December
2014. (Tr. Day 1 93:22-94:17.) In his eighth month at
Lloyd Industries, he became a member of the
union. (Tr. Day 1 96:5-21.) Watson stated that he did
assembly work forty percent of the time. (Tr. Day 1
94:21-25.) When Watson left the job, he was making
$13.50 an hour and was working an average of 33.87
hours per week. (Tr. Day 1 99:19-100:1.) Watson
testified that he worked less than 40 hours per week
because of health issues. (Tr. Day 1 146:14-24.)
When Watson was hired, he stated that the only other
black employee was Broadnax, and that Mathis was
hired after him. (Tr. Day 1 97:9-98:7; 99:5-7.) Watson
testified that he never was written up and that he
received compliments from the shop steward on his
performance. (Tr. Day 1 131:1-18.) Watson testified that
he had seniority over Steve Malloy and that when
Malloy would come into his work area he had to be
shown what to do. (Tr. Day 1 162:10-15.)
*3 Like Mathis, Watson stated that he never received a
comment about his race or background. (Tr. Day 1
152:18-22.) Watson testified that Prendergast “had an
attitude that you can feel, and he never spoke to me”
unless it was a scheduling issue. (Tr. Day 1 130:8-23.)
The day he was fired, Watson testified
Tom Prendergast said Ron, can I speak with you,
because all this was by the time clock. I said yes. I said
what's up. He said I'm laying you off. I said what? He

18a
said I'm laying you off. I said what you laying me off
for. He said because I can.
(Tr. Day 1 122:11-15.) After this interaction, Lloyd
allegedly told Watson to “take the layoff, alright?” and
Watson testified that “the way [Lloyd] said it, it was so
offensive. And he got in my face. So I just left.” (Tr.
Day 1 132:13-15.) Watson admitted that he was “very,
very angry” and that he said a curse word when he was
laid off. (Tr. Day 1 148:13, 150:16-19.) Watson stated
that he was upset about the way that he was laid off,
and that he would have been fine with being laid off in a
“kind and gentle way.” (Tr. Day 1 151:15-23.)
After being laid off, Watson signed a grievance form
with his union representative, Fred Braker, but he
never heard back about Braker's investigation into the
grievance. (Tr. Day 1 123:8-12.) He then filed a racial
discrimination complaint with the Pennsylvania Human
Rights Commission. (Tr. Day 1 134:24-10.)
Watson denied drinking on the job, and stated that he
usually clocked out at lunchtime and ate lunch in his car
in the parking lot. (Tr. Day 1 126:10-127:14.) He also
contended that he did not experience any evidence of a
slowing down of work, though he admittedly did not
have access to books showing how business was going.
(Tr. Day 1 136:12-137:8; 147:9-12.)
Watson explained the way that the layoff affected his
life: “I was distraught. I was heartbroken. I was very
depressed. I went through a period of depression. I felt
like I was a loser. I felt discriminated against. I had
no—I wasn't treated fair. And I felt as though

19a
somebody did something to me that wasn't valid.” (Tr.
Day 1 137:22-138:1.) Watson testified that he collected
unemployment and did temporary jobs for two and a
half years until he began his current job as a punch
press operator at Generation Metal in Trevose,
Pennsylvania in April 2018. (Tr. Day 1 92:21-92:5;
138:12-15; 139:3-18.) He told the jury that the amount
he lost was “$52,247 and some change.” (Tr. Day 1
139:24-140:5.) Watson confirmed that he did not seek
treatment for any of his alleged emotional damages.
(Tr. Day 1 157:21-158:3.)
d. Fred Braker
Fred Braker, the business representative of the Sheet
Metal Workers' International Union, testified that the
seniority policy in the union contract at Lloyd
Industries is plant-wide. (Tr. Day 1 103:18-105:14.)
Braker testified that he attempted to file a grievance on
Watson's behalf after he was laid off, but then decided
against filing it when he talked to a shop steward who
told Braker that Watson “wasn't a very god worker,
that he didn't show up a lot and, you know, came back
from lunch smelling bad, I think alcohol” and that he
“told Mr. Watson, I said, you know, maybe you want to
take a layoff instead of, you know, getting terminated.
At that point, he said okay.” (Tr. Day 1 106:7-109:9.)
The grievance mentioned nothing about race
discrimination. (Tr. Day 1 119:2-8.)
*4 Braker reviewed an email from nine months after
the layoff where he told Prendergast that Watson was
the “lowest seniority. Therefore, there was nothing we
could do as to the Lloyd Industries firing.” (Tr. Day 1

20a
110:18-112:3.) Braker admitted, however, that based
upon a separate document showing that there were
four others with less seniority than Watson, (including
Steve Malloy), Watson was not the lowest in seniority.
(Tr. Day 1 112:24-113:12.)
e. Zenetta Ruffin
Zenetta
Ruffin,
Watson's
partner
of
forty
1
years testified that she only knew Watson to drink
beer and wine socially (“at home, dinner, social events,
parties”), and that he did not come back from work
smelling of alcohol. (Tr. Day 1 175:19-176:20.) Ruffin
also testified that the couple had just bought a house so
she had to “rearrange everything to compensate for the
job loss,” including her working extra shifts. (Tr. Day 1
178:6-179:13.) After Watson was laid off, Ruffin stated
he was “sad, depressed, the whole household, the mood
was difficult during that time.” (Id.)
f. Thomas Prendergast
The defense called Thomas Prendergast, the plant
manager at Lloyd Industries when Watson was laid off.
Prendergast testified that he spoke with Watson when
he asked for equipment or time off, and that
occasionally the two would chat in the men's room (a
claim that Watson denied on rebuttal). (Tr. Day 1 187:525.) Prendergast testified that Watson “wasn't the
greatest employee, he wasn't a get up and goer, he was
a little slow, and he just done his own thing more or
less.” (Tr. Day 1 188:13-15.)
Prendergast's testimony conflicted with Lloyd's
regarding write-ups; Prendergast stated that the

21a
company wrote employees up after they receive a
verbal warning. (Tr. Day 1 188:16-189:10.) He also
testified that he laid off Watson because of a “little lull”
in work and because Watson had the least seniority in
his department. (Tr. Day 1 190:22-191:2.) Although
Prendergast recognized that the union contract
included plant-wide seniority, he stated that it only
applies “if he would put in for another job or deem that
he could do the job, but this never happened in this
case.” (Tr. Day 197:25-198:4.)
With regard to the other two black employees,
Prendergast stated that he had “trouble” with
Broadnax and was not sure if Broadnax was laid off
because he was low in seniority. (Try. Day 1 198:22199:13.) He contended that he never took hours away
from Mathis, but that Mathis himself cut down his
hours. (Try. Day 1 200:10-12, 201:5-9.) Prendergast
stated that he consulted with Lloyd when making the
lay off decisions. (Tr. Day 1 203:18-24.)
Prendergast testified that he did not hire Steve Malloy,
but that Malloy was hired after him as an assembler.
(Tr. Day 1 201:20-202:5.) According to Prendergast,
Malloy was rarely late and when he was, he would alert
management. (Tr. Day 1 202:9-14.)
II. Legal Standard
Defendants move for entry of judgment as a matter of
law pursuant to Rule 50, for a new trial pursuant to
Rule 59, or in the alternative, for remittitur. Each of
these routes imposes a heavy burden on Defendants.

22a
A post-trial motion for judgment as a matter of law
under Rule 50(b) “may be granted ‘only if, viewing the
evidence in the light most favorable to the nonmovant
and giving it the advantage of every fair and reasonable
inference, there is insufficient evidence from which a
jury reasonably could find liability.’ ” Mancini v.
Northampton Cty., 836 F.3d 308, 314 (3d Cir.
2016) (quoting Lightning Lube, Inc. v. Witco Corp., 4
F.3d 1153, 1166 (3d Cir. 1993) ). “Although judgment as
a matter of law should be granted sparingly, a scintilla
of evidence is not enough to sustain a verdict of
liability.” Lightning Lube, 4 F.3d at 1166. Where a jury
returns a verdict in favor of the plaintiff, a court must
“examine the record in a light most favorable to the
plaintiff, giving her the benefit of all reasonable
inferences, even though contrary inferences might
reasonably be drawn.” In re Lemington Home for the
Aged, 777 F.3d 620, 626 (3d Cir. 2015) (quoting Dudley
v. S. Jersey Metal, Inc., 555 F.2d 96, 101 (3d Cir. 1977) ).
*5 Rule 59 allows a court, after conducting a jury trial,
to grant a new trial “for any reason for which a new
trial has heretofore been granted in an action at law in
federal court.” Fed. R. Civ. P. 59(a)(1)(A). However, a
court, “should do so only” when “the great weight of the
evidence cuts against the verdict and ... [ ] a
miscarriage of justice would result if the verdict were
to stand.” Leonard v. Stemtech Int'l Inc., 834 F.3d 376,
386 (3d Cir. 2016) (quoting Springer v. Henry, 435 F.3d
268, 274 (3d Cir. 2006) ) (alterations original).
III. Defendant's Post-trial Motion
a. Judgment as a Matter of Law under Rule 50(b)

23a
Defendant seeks judgment as a matter of law in its
favor on the entire verdict. It asserts that this relief is
appropriate “because there was no evidence of record
showing that Defendant unlawfully discriminated
against Plaintiff on the grounds of his race.” (Mot.
Memo. at 5.) Defendant argues initially that Plaintiff
did not make out a prima facie case because Plaintiff did
not show that he was treated less favorably than
similarly situated employees of a different race. (Id. at
8.) Plaintiff responds that under the plant-wide
seniority clause in the union contract (P-21, Article
X(A) ), Watson should have been retained because he
could perform other work at the plant. (Resp. at 14.)
Plaintiff also asserts that Steve Malloy, a white
employee with less seniority than him, was retained
when he was laid off. (Resp. at 16-17.)
For discrimination lawsuits involving layoffs due to a
reduction-in-force, as here, a prima facie case of
discrimination is established by a demonstration that
plaintiff “was in the protected class, he was qualified, he
was laid off and other unprotected workers were
retained.” Marzano v. Computer Science Corp. Inc., 91
F.3d 497, 502 (citing Armbruster v. Unisys Corp., 32
F.3d 768, 777 (3d Cir. 1994.) ) We are more than
satisfied that Plaintiff met this standard and made out a
prima facie case. Mancini, 836 F.3d at 314.
Defendant also contends that Plaintiff has not shown
pretext in light of Lloyd and Prendergast's testimony
that there was a lull in business and their testimony
that Watson had performance issues. (Mot. Memo. at
11.) Plaintiff responds by pointing to the various

24a
portions of testimony where the credibility of the
defense witnesses was questionable. (Resp. at 19-24.)
We must give the evidence all reasonable inferences in
favor of Plaintiff. We conclude that there was ample
evidence from which a reasonable jury could conclude
that Lloyd Industries' proffered reason for laying off
Watson—a lull in work—was pretext for racial
discrimination. Mancini, 836 F.3d at 314. Most
significantly among the possible reasons is the fact that
there were only three black employees of the factory
with over sixty employees and that all three of these
employees were laid off or voluntarily left within the
same week. Moreover, Defendant even notes Lloyd's
testimony that “were Plaintiff a stellar employee, he
would be working at the Montgomeryville plant this
very day.” (Id. at 14.)
The Court must also note that Mr. Prendergast had an
aggressive, somewhat hostile, manner when he
testified, which is not reflected in the transcript, that
may have warranted the jury to disbelieve his
testimony and to make the verdict and award the
amount of punitive damages that jury found.
Defendant's motion for judgment as a matter of law
with regards to the damage award is reserved for
additional
briefing
in
accordance
with
the
accompanying order.
b. New trial under Rule 59(a)
*6 Defendant next moves for a new trial under Rule
59(a). Our latitude with granting a new trial depends
upon the basis for doing so. “[N]ew trials because the

25a
verdict is against the weight of the evidence are proper
only when the record shows that the jury's verdict
resulted in a miscarriage of justice or where the
verdict, on the record, cries out to be overturned or
shocks our conscience.” Klein v. Hollings, 992 F.2d 1285,
1290 (3d Cir. 1993) (quoting Williamson v. Consol. Rail
Corp., 926 F.2d 1344, 1352 (3d Cir. 1991) ).
For the reasons discussed above, the jury's verdict was
not against the weight of evidence or a miscarriage of
justice.
IV. Conclusion
In sum, we deny Defendant's motion for judgment as a
matter of law or a new trial. We reserve for now our
determination of Defendant's motion as to the damage
award.
An appropriate order follows.
Footnotes
1.Ruffin was referred to as Watson's wife throughout
trial although the two were never formally married.
(Tr. Day 1 174:6-10.)

26a

10/7/2020
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 19-2066 & 19-2525

RONALD WATSON,
v.
LLOYD INDUSTRIES, INC.,
Appellant
(E.D. Pa. No. 2-17-cv-01049)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES,
JORDAN,
HARDIMAN,
GREENAWAY,
JR.,
SHWARTZ,
KRAUSE,
RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS and NYGAARD1,
Circuit Judges
1 Judge Nygaard’s vote is limited to panel rehearing
only

27a
The petition for rehearing filed by appellant in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit
in regular active service, and no judge who concurred in
the decision having asked for rehearing, and a majority
of the judges of the circuit in regular service not having
voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ Theodore A. McKee
Circuit Judge

Dated: October 7, 2020
MB/cc: Samuel Dion
Theodore C. Forrence, Jr., Esq.

28a

CONSTITUTIONAL PROVISIONS
AND STATUTES INVOLVED
•

U.S. Const. amend. V
The Fifth Amendment to the United States
Constitution states in pertinent part:

No person shall . . . be deprived of life, liberty, or
property, without due process of law . . .

•

U.S. Const. amend. XIV
Section 1 of the Fourteenth Amendment to the
United States Constitution states in pertinent
part:

29a
No State shall make or enforce any law
which shall abridge the privileges or immunities
of citizens of the United States; nor shall any
State deprive any person of life, liberty, or
property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.
•

42 U.S.C. § 2000e-2(a)(1)
Title VII of the Civil Rights Act 1964, 42 U.S.C.
§ 2000e-2(a)(1), provides:

It shall be an unlawful employment practice for
an employer-(1) to fail or refuse to hire or to
discharge any individual, or otherwise to
discriminate against any individual with respect
to his compensation, terms, conditions, or
privileges of employment, because of such
individual’s race . . .

•

42 U.S.C. § 1981
The Civil Rights Act of 1866, 42 U.S.C. § 1981,
provides:

(a) Statement of equal rights. All
persons within the jurisdiction of the United
States shall have the same right in every State

30a
and Territory to make and enforce contracts, to
sue, be parties, give evidence, and to the full and
equal benefit of all laws and proceedings for the
security of persons and property as is enjoyed by
white citizens, and shall be subject to like
punishment, pains, penalties, taxes, licenses, and
exactions of every kind, and to no other.

(b) “Make and enforce contracts”
defined. For purposes of this section, the term
“make and enforce contracts” includes the
making, performance, modification, and
termination of contracts, and the enjoyment of
all benefits, privileges, terms, and conditions of
the contractual relationship.

(c) Protection against impairment. The
rights protected by this section are protected
against impairment by nongovernmental
discrimination and impairment under color of
State law.

•

42 U.S.C. § 1981a(b)(3)(A)
42 U.S.C. § 1981a(b)(3)(A), enacted as part of the
Civil Rights Act of 1991 as an amendment to
Title VII of the Civil Rights Act of 1964,
provides:

31a
(3) Limitations. The sum of the amount of
compensatory damages awarded under this
section for future pecuniary losses, emotional
pain, suffering, inconvenience, mental anguish,
loss of enjoyment of life, and other nonpecuniary
losses, and the amount of punitive damages
awarded under this section, shall not exceed, for
each complaining party — (A) in the case of a
respondent who has more than 14 and fewer
than 101 employees in each of 20 or more
calendar weeks in the current or preceding
calendar year, $50,000;

